No.

IN THE
SUPREME COURT OF THE UNITED STATES

CHADWICK MARVIN THOMPSON
PETITIONER,
V.
UNITED STATES OF AMERICA
RESPONDENT.

CERTIFICATE OF SERVICE

I hereby declare under penalty of perjury that, this

day of

March 2021. I served a copy of the petition for a Writ of Certiorari Appendix
being filed in this matter and on copy of this Certificate of Service, by
United States mail, postage prepaid, on the following counsel:
Solicitor General of the United States,
Room 5616, Department of Justice,
950 Pennsylvania Ave • ) N.W.
Washington, DC 20530-0001

V

Chadwick M. Thompson
Pro Se

CERTIFICATE OF SERVICE
I hereby certify that, this

(fe

day of March 2021, I served a copy

of the foregoing Motion for Leave to proceed in forma pauperis, by United
States mail, postage prepaid, on the following counsel;
Solicitor General of the United States,
Room 5616, Department of Justice,
950 Pennsylvania Ave •

j

N.W.

Wahington, DC 20530-0001

\

N

